U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Buck Gene Brune v. United States, No. 21-273
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2021. The government’s response is now due, after one extension, on October 25, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 24, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-0273
BRUNE, BUCK GENE
USA

CODY LEE COFER
COFER LUSTER LAW FIRM, PC
300 BURNETT STREET
STE. 130
FORT WORTH, TX 76102
682-777-3336
CCOFER@COFERLUSTER.COM
BRIAN J. NEWMAN
LAW OFFICE OF BRIAN J. NEWMAN
300 BURNETT ST.
#132
FORT WORTH, TX 76102
817-231-0023
817-503-7566(Fax)

